                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                            INDEPENDENT AUDITOR’S REPORT
                                    AUD-FM-14-12

To the United States Commissioner and the Inspector General of the International Boundary and
Water Commission, United States and Mexico, U.S. Section

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the International
Boundary and Water Commission, United States and Mexico, U.S. Section (USIBWC), which
comprise the consolidated balance sheets as of September 30, 2013 and 2012, the related
consolidated statements of net cost and changes in net position and the combined statements of
budgetary resources for the years then ended, and the related notes to the consolidated financial
statements (hereinafter referred to as the “consolidated financial statements”).

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated
financial statements in accordance with accounting principles generally accepted in the United
States of America; this includes the design, implementation, and maintenance of internal control
relevant to the preparation and fair presentation of financial statements that are free from
material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on
our audits. We conducted our audits in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and
Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal
Financial Statements. Those standards and OMB Bulletin No. 14-02 require that we plan and
perform the audit to obtain reasonable assurance about whether the consolidated financial
statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the financial
statements in order to design audit procedures that are appropriate under the circumstances but
not for the purpose of expressing an opinion on the effectiveness of the entity’s internal control.
Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness
of accounting policies used and the reasonableness of significant accounting estimates made by
management, as well as evaluating the overall presentation of the financial statements.



                                                  1
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Consolidated Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of USIBWC as of September 30, 2013 and 2012, and its
net cost of operations, changes in net position, and budgetary resources for the years then ended,
in accordance with accounting principles generally accepted in the United States of America.

Emphasis of Matter

As discussed in Note 1 and Note 6 to the financial statements, in FY 2013, USIBWC adopted
new accounting guidance issued by the Federal Accounting Standards Advisory Board
(FASAB)—specifically, Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-
Related Cleanup Costs. Our opinion is not modified with respect to this matter.

Other Matter

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that the
Management’s Discussion and Analysis, condition assessments of Heritage Assets and
Stewardship Land, Combining Schedule of Budgetary Resources, and Deferred Maintenance
(hereinafter referred to as “required supplementary information”) be presented to supplement the
consolidated financial statements. Such information, although not a part of the consolidated
financial statements, is required by OMB Circular A-136, Financial Reporting Requirements,
and FASAB, which consider it to be an essential part of financial reporting for placing the
consolidated financial statements in an appropriate operational, economic, or historical context.
We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which
consisted of inquiries of management about the methods of preparing the information and
comparing it for consistency with management’s responses to our inquiries, the consolidated
financial statements, and other knowledge we obtained during our audits of the consolidated
financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion
or provide any assurance.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards and OMB Bulletin No. 14-02, we have also
issued reports, dated December 20, 2013, on our consideration of USIBWC’s internal control
over financial reporting and on our tests of USIBWC’s compliance with certain provisions of
laws, regulations, and contracts for the year ended September 30, 2013. The purpose of those


                                                2
reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing and not to provide an opinion on internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with auditing standards generally accepted in the United States of America,
Government Auditing Standards, and OMB Bulletin No. 14-02, in considering USIBWC’s
internal control over financial reporting and compliance.




Alexandria, Virginia
December 20, 2013




                                                3
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




       INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL OVER
                        FINANCIAL REPORTING

To the United States Commissioner and the Inspector General of the International Boundary and
Water Commission, United States and Mexico, U.S. Section

We have audited the consolidated financial statements of the International Boundary and Water
Commission, United States and Mexico, U.S. Section (USIBWC) as of and for the year ended
September 30, 2013, and have issued our report thereon dated December 20, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

Internal Control Over Financial Reporting

In planning and performing our audit of the consolidated financial statements, we considered
USIBWC’s internal control over financial reporting (internal control) as a basis for designing
audit procedures that are appropriate under the circumstances for the purpose of expressing our
opinion on the consolidated financial statements but not for the purpose of expressing an opinion
on the effectiveness of USIBWC’s internal control. Accordingly, we do not express an opinion
on the effectiveness of USIBWC’s internal control. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 14-02. We did
not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient
operations.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis.

Our consideration of internal control was for the limited purpose described in the preceding
paragraphs and was not designed to identify all deficiencies in internal control that might be
material weaknesses. Given these limitations, during our audit, we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material
weaknesses may exist that have not been identified.

Our audit was also not designed to identify deficiencies in internal control that might be
significant. A significant deficiency is a deficiency, or combination of deficiencies, in internal




                                                 1
control that is less severe than a material weakness yet important enough to merit attention by
those charged with governance. We consider the following deficiencies in USIBWC’s internal
control to be significant deficiencies.

                                      Significant Deficiencies

I.       Property and Equipment

USIBWC owns a significant amount of diverse property and equipment. As of September 30,
2013, USIBWC reported $857 million in property and equipment, which included real and
personal property. Since USIBWC owns and maintains assets at multiple locations along the
border between the United States and Mexico, it is essential for USIBWC to have controls in
place to monitor and maintain these assets. We identified control deficiencies with USIBWC’s
property and equipment processes that, when aggregated, constituted a significant deficiency in
internal control. Property and equipment was also reported as a significant deficiency in our
audit of USIBWC’s FY 2012 financial statements. The individual deficiencies we identified are
summarized as follows:

     •   Recording Construction-in-Progress Transactions – Construction costs should be
         recorded as construction-in-progress (CIP) until the asset being constructed is placed in
         service, at which time the balance should be transferred to a general property and
         equipment account. We found that 9 of 26 operating expenses tested were construction
         costs that should have been classified as CIP. After we identified these errors, USIBWC
         performed an analysis of operating expense activity and identified a number of additional
         instances in which CIP was improperly classified as operating expenses. Additionally,
         we identified a CIP project with a negative balance, which required a manual adjusting
         entry. As a result of audit work and USIBWC management’s analysis, more than $15.9
         million in operating expenses were reclassified as CIP during FY 2013. Because
         USIBWC does not always process payments to construction vendors using system codes
         that will automatically record payments as CIP, USIBWC had implemented a process to
         manually review transactions recorded to CIP and operating expenses each quarter to
         identify and correct items that were not recorded correctly. However, because of the
         manual nature and timing of this review, not all transactions that were improperly
         recorded had been identified by the time of our audit. Due to the size of several active
         USIBWC CIP projects, significant amounts may be misclassified and not detected.

     •   Depreciation Expense Errors – Depreciation expense should be calculated through the
         systematic and rational allocation of the cost of property and equipment, less its estimated
         salvage or residual value, over the estimated useful life of an asset. During our review of
         depreciation expense, we identified unusual account activity, which USIBWC officials
         confirmed was erroneous. During FY 2013, USIBWC transferred property account
         balances between two appropriations. When the transfer was processed, the Global
         Financial Management System (GFMS) treated the assets as newly acquired, and
         depreciation expense was recorded back to the date that the assets were placed into
         service. However, the system had already recorded depreciation expense for the assets,
         which was not reversed when the assets were transferred. The error resulted in a $7.3


                                                  2
           million overstatement of expenses. Because USIBWC does not routinely transfer assets
           between appropriations, USIBWC officials were unaware of how GFMS would process
           the adjustment. Although USIBWC had a control in place to review and analyze account
           balances at the financial statement level, the control was not designed to identify and
           resolve errors in individual accounts, such as depreciation expenses. Without effective
           routine account-level reviews, errors, anomalies, or unexpected account fluctuations may
           go unidentified.

II.        Information Technology

USIBWC uses key information systems maintained by the U.S. Department of State
(Department), including the general support systems and applications for accounting, budget
execution, procurement, and logistics. The Department is responsible for maintaining an
adequate general and application control environment over these systems. We evaluated the
Department’s internal control structure surrounding the general support system and key financial
applications that are used by USIBWC. In general, our audit and an audit performed by the
Office of Inspector General (OIG) found that the Department had not implemented effective
standards, policies, processes, and procedures over its information security program and its
financial applications.

We noted weaknesses and vulnerabilities in the general support system and several key
applications maintained by the Department. These deficiencies are inherited by USIBWC and
present a risk to financial and other data, which, in aggregate, we consider to be a significant
deficiency in internal control. While we noted that USIBWC had developed some processes and
controls to compensate for the deficiencies identified in the Department’s systems, not all risks
and deficiencies related to the systems shared with the Department were fully mitigated by those
compensating controls. Information technology was also reported as a significant deficiency in
our audit of USIBWC’s FY 2012 financial statements. The following weaknesses, identified
during Department audits, impact USIBWC:

       •   Information Security Program – The Department’s OIG performed an audit of the
           Department’s information security program for FY 2013 in accordance with the Federal
           Information Security Management Act of 2002 (FISMA). 1 OIG identified numerous
           weaknesses in the Department’s information security program, which, in aggregate, was
           reported as a FISMA significant deficiency. OIG reported weaknesses in the areas of [Re
           [Redacted] (b) (5)                       plans of action and milestones, and the    dac
                                                                                               ted]
           continuous monitoring program. [Redacted] (b) (5)                                   (b)
      [Redacted] (b) (5)
                                                                                               (5)




1
    Audit of the Department of State Information Security Program (AUD-IT-14-03, Nov. 2013).


                                                         3
    •   Audit Logs for Financial Applications – During the audit of the Department’s FY 2012
        financial statements, we performed risk-based testing procedures of the Department’s
        financial applications. We identified deficiencies for GFMS, which is used by USIBWC
        as its core accounting system. Specifically, the Department did not regularly review
        audit logs for suspicious behavior or malfunctions. For example, the Department did not
        have an effective process to log and independently monitor changes to the permissions
        granted to user accounts. In FY 2013, the Department took steps to remediate this
        condition. However, the Department had not completed several steps to effectively
        implement application monitoring controls. By not reviewing the audit logs on a regular
        basis, the Department did not have reasonable assurance that inappropriate access or
        changes to user accounts would be identified in a timely manner.

During the audit, we noted certain additional matters involving internal control over financial
reporting that we will report to USIBWC’s management in a separate letter.

                      Summary of Significant Internal Control Deficiencies

In the Report on Internal Control included in the audit report on USIBWC’s FY 2012 financial
statements, 2 we noted several issues that were related to internal control over financial reporting.
The status of each issue is summarized in Table 1.

                 Table 1. Summary of Significant Internal Control Deficiencies
           Control Deficiency                        FY 2012 Status                  FY 2013 Status

Property and Equipment                            Significant Deficiency          Significant Deficiency

Budgetary Accounting                              Significant Deficiency           Management Letter

Information Technology                            Significant Deficiency          Significant Deficiency

USIBWC’s Response to Findings

USIBWC management has provided its response to our findings in a separate memorandum
attached to this report. We did not audit management’s response, and accordingly, we express
no opinion on it.

Purpose of This Report

The purpose of this report is solely to describe the scope of our testing of internal control over
financial reporting and the results of that testing and not to provide an opinion on the
effectiveness of USIBWC’s internal control. This report is an integral part of an audit performed
in accordance with auditing standards generally accepted in the United States of America,


2
 Independent Auditor’s Report on the International Boundary and Water Commission, United States and Mexico,
U.S. Section, 2012 Financial Statements (AUD-FM-13-10, Dec. 2012).


                                                      4
Government Auditing Standards, and OMB Bulletin No. 14-02 in considering the entity’s
internal control over financial reporting. Accordingly, this report is not suitable for any other
purpose.




Alexandria, Virginia
December 20, 2013




                                                 5
                                                        1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                        PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


   INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE WITH APPLICABLE
         PROVISIONS OF LAWS, REGULATIONS, AND CONTRACTS

To the United States Commissioner and the Inspector General of the International Boundary and
Water Commission, United States and Mexico, U.S. Section

We have audited the consolidated financial statements of the International Boundary and Water
Commission, United States and Mexico, U.S. Section (USIBWC) as of and for the year ended
September 30, 2013, and have issued our report thereon dated December 20, 2013. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

Compliance

As part of obtaining reasonable assurance about whether USIBWC’s consolidated financial
statements are free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
material impact on the determination of financial statement amounts, and certain provisions of
other laws and regulations specified in OMB Bulletin No. 14-02, that we determined were
applicable. We limited our tests of compliance to these provisions and did not test compliance
with all laws, regulations, and contracts applicable to USIBWC. However, providing an opinion
on compliance with those provisions was not an objective of our audit, and accordingly, we do
not express such an opinion. The results of our tests disclosed no instances of noncompliance
that are required to be reported under Government Auditing Standards or OMB Bulletin No. 14-
02.

Purpose of This Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
results of that testing and not to provide an opinion on the effectiveness of USIBWC’s
compliance. This report is an integral part of an audit performed in accordance with auditing
standards generally accepted in the United States of America, Government Auditing Standards,
and OMB Bulletin No. 14-02 in considering USIBWC’s compliance. Accordingly, this report is
not suitable for any other purpose.




Alexandria, Virginia
December 20, 2013


                                               1
                              INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                        UNITED STATES AND MEXICO

OfflCE OF THE COMM IS5JONER                        December 23, 2013
  UNITED STATESSECfiON



      Mr. Harold W. Geisel
      United States Department of State
      Deputy Inspector General
      Office oflnspector General
      Washington, D. C. 20520

      Subject: Independent Auditor's Report to the audit of the United States Commissioner and the
      Inspector General of the International Boundary and Water Commission, United States and Mexico,
      U.S. Section

      Dear Mr. Geisel:

      We received and have reviewed the draft Independent Auditor's Report of the United States Section,
      International Boundary and Water Commission (IBWC), 2013 and 2012 financial statements. Thank
      you for the opportunity to comment on your audit recommendations.

      Attached please find our responses to each of the recommendations as reported in the draft
      Independent Auditor's Report. Please advise if you have any questions or if we may be of any
      assistance.




                                                      Edward Drusina, P.E.
                                                      Commissioner




                  The Commons, Building C, Suite 100 • 4171 N. Mesa Street • El Paso, Texas 79902-1441
                            (915) 832-4100 • Fax: (915} 832-4190 • http:/ jwww.ibwc.gov




                                                           1
        Independent Auditor's Report on Internal Control over Financial Reporting

Significant Deficiencies

I. Property and Equipment

Recording Construction-in-Progress Transactions - Construction costs should be recorded as
construction-in-progress (CIP) until the asset being constructed is placed in service, at which time the
balance should be transferred to a general property and equipment account. We found that 9 of26
operating expenses tested were construction costs that should have been classified as CIP. After we
identified these errors, US IBWC performed an analysis of operating expense activity and identified a
number of additional instances in which C!P was improperly classified as operating expenses.
Additionally, we identified a CIP project with a negative balance, which required a manual adjusting
entry. As a result of audit work and USIBWC management' s analysis, more than $ 15.9 million in
operating expenses were reclassified as ClP during FY 2013. Because USIBWC does not always
process payments to construction vendors using system codes that will automatically record payments
as CIP, USIBWC had implemented a process to manually review transactions recorded to CIP and
operating expenses each quarter to identify and correct items that were not recorded correctly.
However, because of the manual nature and timing of this review, not all transactions that were
improperly recorded had been identified by the time of our audit. Due to the size of several active
USIBWC CIP projects, significant amounts may be misclassified and not detected.

Response: Concur
The USIBWC Accounting Officer will work with the Department of State management officials
responsible for the GFMS system to see if the posting logic for recording CIP transactions can be
modified to require the project code for construction projects. Until the issue with the posting logic can
be resolved, the USIBWC will review construction-in-progress and operating expense transactions
prior to posting to ensure the transactions are posted with a project code.

If the requested modification to the GFMS posting logic cannot be implemented, USIBWC will
ensure project codes are assigned for each capital project when the contract award and obligation are
recorded and ensure all capital project payments are processed against the correct project code.
Quarterly, the usmwc will review the construction-in-progress projects and ensure the balances are
appropriate as well as continue to review posted transactions to ensure they are recorded correctly.


Depreciation Expense Errors- Depreciation expense should be calculated through the systematic and
rational allocation of the cost of property and equipment, less its estimated salvage or residual value,
over the estimated useful life of an asset. During our review of depreciation expense, we identified
unusual account activity, which USIBWC officials confirmed was erroneous. During FY 20 13,
US IBWC transferred property account balances between two appropriations. When the transfer was
processed, the Global Financial Management System (GFMS) treated the assets as newly acquired, and
depreciation expense was recorded back to the date that the assets were placed into service. However,
the system had already recorded depreciation expense for the assets, which was not reversed when the
assets were transferred. The error resulted in a $7.3 million overstatement of expenses. Because
USIBWC does not routinely transfer assets between appropriations, USIBWC officials were unaware
of how GFMS would process the adjustment. Although USIBWC had a control in place to review and
analyze account balances at the financial statement level, the control was not designed to identify and




                                                     2
     resolve errors in individual accounts, such as depreciation expenses. Without effective routine account-
     level reviews, errors, anomalies, or unexpected account fluctuations may go unidentified.

     Response: Concur
     The transfer of assets from the S&E appropriation to the Construction appropriation was a nonrecurring,
     one-time event and USLBWC does not foresee doing this in the future except to correct an error. Going
     forward, all PP&E transactions will be funded by the Construction appropriation and there should be no
     need to make such a transfer in the future. In the event that such a transfer ofPP&E is necessary,
     rBWC is now aware of the effect the transfer will have on depreciation and will make the necessary
     correcting entries to bring the depreciation expense back to the correct balance. USIBWC will conduct
     a review of all accounts involved prior to and after the transfer.

     Additionally, USIBWC will conduct analytical reviews at the individual account level, in addition to
     the financial statement level, to identify errors in account balances that may not otherwise be identified.


     II. Information Technology

     Information Security Program - The Department' s OIG performed an audit of the Department' s
     information security program for FY 2013 in accordance with the Federal Information Security
     Management Act of2002 (FISMA). OJG identified numerous weaknesses in the Department's
     information security program, which, in aggregate, was reported as a FISMA significant deficiency.
     OIG reported weaknesses in the areas of [Redacted] (b) (5)                           plans of action
     and milestones, and the continuous monitoring program. [Redacted] (b) (5)
[Redacted] (b) (5)




     Audit Logs for Financial Applications - During the audit of the Department's FY 2012 financial
     statements, we performed risk-based testing procedures of the Department' s financial applications. We
     identified deficiencies for GFMS, which is used by USIBWC as its core accounting system.
     Specifically, the Department did not regularly review audit logs for suspicious behavior or malfunctions.
     For example, the Department did not have an effective process to log and independently monitor changes to
     the permissions granted to user accounts. In FY 2013, the Department took steps to remediate this
     condition. However, the Department had not completed several steps to effectively implement application
     monitoring controls. By not reviewing the audit logs on a regular basis, the Department does not have
     reasonable assurance that inappropriate access or changes to user accounts would be identified in a timely
     manner.

     Response: Concur
     The USIBWC will work with management officials from the Department of State over the general
     support system and financial applications to work closely in implementing compensating controls as
     recommended under this finding, [Redacted] (b) (5)
     changes to user accounts in a timely manner.




                                                         3
